CERTIFICATION OF TRANSMITTING THE PETITION TO COUNSEL

The original petition was sent to the Court and to the Prosecution by certified mail
on August 4,2021.
August 9, 2021, the Clerk of the Supreme Court returned the petition noting that no motion to
proceed in forma pauperis was attached.
The corrected petition, adding the motion for leave to proceed in forma pauperis, was sent to the
Prosecution by certified mail on

August 20. 2021

Attorney Steve Descano
Commonwealth’s Attorney Office
4110 Chain Bridge Rd. #114
Fairfax, VA 22030
Since Mr. Norman Achin is currently incarcerated at the Fairfax County Adult Detention Center
and is representing himself, one original copy of the petition is included. Rule 39.2.

Name of Pro Se Party (Print or Type):
Norman Achin
15519 Banio Ct.. Woodbridee. VA 22193

0

TVYUJl

•n.

Signature of Pro Se Party
(Bonnie Burkhardt, power of attorney for Norman Achin)

r

CERTIFICATION OF TRANSMITTING THE BRIEF TO COUNSEL

This brief was sent to the Prosecution by certified mail on
Attorney Steve Descano
Commonwealth’s Attorney Office
4110 Chain Bridge Rd. #114
Fairfax, VA 22030

Name of Pro Se Party (Print or Type):
Norman Achin
15519 Banio Ct.. Woodbridee. VA 22193

Qotvw>-

j&J'

pQ A ^y\.

Signature of Pro Se Party
(Bonnie Burkhardt, power of attorney for Norman Achin)

—>

